      Office of Inspector General
      Audit Report




INFORMATION TECHNOLOGY


   Unreliable Data Affects Usability
      of DOCKET Information
         Report Number 2002-P-00004

              January 18, 2002
Inspector General Division                 Information Technology Audits Staff,
 Conducting the Audit                       Washington, DC


Regions Covered                            All
Program Office Involved                    Office of Enforcement and Compliance Assurance
Audit Team Members                         Ed Shields
                                           Chuck Dade
                                           John Ewan
                                           Rudolph Brevard
                                           Teresa Richardson
                                           Judy Tsai
                                           David Cofer


Abbreviations
 AO                Administrative Order
 CCDS              Case Conclusion Data Sheet
 CDETS             Consent Decree Tracking System
 DOCKET            EPA’s National Enforcement Docket System
 EPA               United States Environmental Protection Agency
 GAO               United States General Accounting Office
 GPRA              Government Performance and Results Act
 ICIS              Integrated Compliance Information System
 IDEA              Interactive Data Extraction and Analysis Software
 IG                Inspector General
 OECA              Office of Enforcement and Compliance Assurance
 OIG               Office of Inspector General
 Regions           Ten Regional Offices, Headquarters’ Mobile Source Enforcement Branch, and
                   Headquarters’ Toxics and Pesticides Enforcement Division
 SEP               Supplemental Environmental Project
       We appreciate the cooperation afforded us during the course of this audit by the Regions
and OECA. We have no objections to the further release of this report to the public. Should you
or your staff have any questions regarding this report, please contact Ed Shields, Audit Manager,
Information Technology Audits Staff, at (202) 260-3656.

Attachment
               EXECUTIVE SUMMARY
INTRODUCTION        The National Enforcement Docket System (DOCKET) is
                    the official United States Environmental Protection Agency
                    (EPA) database for tracking and reporting on civil judicial
                    and administrative enforcement actions. EPA developed
                    DOCKET to track the life-cycle of an enforcement action
                    from its initiation to its conclusion. The Office of
                    Enforcement and Compliance Assurance (OECA) provides
                    policies and procedures for the DOCKET system, while
                    EPA regions and Headquarters’ offices are responsible for
                    entering and maintaining information within the system.

OBJECTIVE           The audit objective was to assess whether DOCKET
                    contained accurate and reliable data for managing
                    enforcement actions, as well as reporting on environmental
                    progress.

RESULTS IN BRIEF    EPA under-reported the environmental impact of
                    enforcement actions under the Government Performance
                    and Results Act (GPRA). Our audit disclosed that 69
                    percent of the applicable fiscal 2000 pollutant records
                    contained blank pollutant amount fields. The pollutant
                    amount field should have contained amounts used to
                    compute and report pollutant reductions under GPRA.
                    Additionally, our audit determined the DOCKET system, as
                    a whole, contained significant instances of inaccurate and
                    incomplete data. Specifically, 94 percent of the cases
                    reviewed within DOCKET contained at least one error in a
                    key field. Until management takes decisive steps to address
                    particular data weaknesses, neither Congress, the public,
                    nor EPA management should depend on the DOCKET
                    system as a reliable source of environmental data.

                    OECA is implementing a replacement system for DOCKET,
                    the Integrated Compliance Information System (ICIS), for
                    the express purpose of tracking and managing enforcement
                    compliance cases. However, if improvements are not made



                                                          Report No. 2002-P-00004
                  so that ICIS can avoid the problems encountered with
                  DOCKET, enforcement data quality will continue to suffer.
                  In order for ICIS to adequately meet user needs and be a
                  meaningful source of information, in accordance with
                  GPRA, the multiple causes that contributed to incomplete
                  and inaccurate data in DOCKET need to be addressed.
                  Factors contributing to the poor data quality included a
                  cumbersome system that lacks the functionality needed to
                  manage cases; inadequate and outdated policies,
                  procedures, and guidance; and the absence of
                  comprehensive reviews.

RECOMMENDATIONS   Due to the nature of the audit findings, OECA, as well as
                  the 10 regions, Headquarters’ Mobile Source Enforcement
                  Branch, and Headquarters’ Toxics and Pesticides
                  Enforcement Division, will need to implement corrective
                  actions to effectively address these weaknesses. In
                  particular, we recommend that the Assistant Administrator
                  for Enforcement and Compliance Assurance improve overall
                  polices and procedures for: computing pollutant related
                  information, performing quality assurance, disseminating
                  training, and monitoring the implementation of the policies.
                  The Assistant Administrator also needs to (1) develop and
                  implement a process to ensure system requirements
                  identified by the users are included in the design and
                  implementation of the system being developed to replace
                  DOCKET, and (2) develop and apply a scrubbing process
                  to the DOCKET data used to populate the new system to
                  ensure it is accurate and complete.

                  We also made several recommendations to the Regional
                  Administrators and the Director of Toxics and Pesticides
                  Enforcement Division and the Chief of the Mobile Source
                  Enforcement Branch. These recommendations entail
                  establishing regional policies and procedures that (1) ensure
                  compliance with Headquarters’ policies and procedures;
                  (2) outline required cross-organizational lines of authority
                  and communication; and (3) implement a monitoring
                  process to ensure regional policies and procedures are
                  followed, continuously reevaluated, and improved.




                                                         Report No. 2002-P-00004
                            ii
AGENCY COMMENTS      In general, the Agency officials agreed with the conditions
AND OIG EVALUATION   identified in the report. However, the Agency believes the
                     report overstates the unreliability of the data. In a
                     memorandum dated December 19, 2001, the Agency
                     proposed separating Judicial (Civil) cases from
                     Administrative cases. The Agency believed this would
                     provide a better representation of DOCKET data reliability
                     because certain fields only apply to Judicial cases.

                     We employed a methodology that conservatively assessed
                     the overall reliability of the data within DOCKET. We
                     evaluated each field based on whether it was applicable to
                     the particular case. For example, if a field was not
                     applicable and was left blank, we accepted it as correct.
                     This methodology provided a very conservative error rate in
                     comparison to separately evaluating cases applicable to a
                     specific situation. We obtained concurrence on the
                     methodology from Agency officials and the General
                     Accounting Office (GAO) prior to beginning the review.

                     We believe that data unreliability is not overstated, based on
                     the significant error rates uncovered for most of the key
                     fields reviewed.

                     Agency officials stated they would respond to the specific
                     recommendations upon receipt of the final report.




                                                            Report No. 2002-P-00004
                               iii
     Report No. 2002-P-00004
iv
                             TABLE OF CONTENTS

                                                                                                                                     Page



EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

CHAPTERS

1-       INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
         Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
         Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
         Criteria . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

2-       GPRA ENVIRONMENTAL IMPACT UNDER-REPORTED . . . . . . . . . . . . . . . . . . . . 5
         EPA Under-Reported Environmental Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
         GPRA-Related Fields Inaccurate, Incomplete, or Unsupported . . . . . . . . . . . . . . . . . . . . 6
         Existing Problems Affect Future Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
         Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

3-       UNRELIABLE DATA IMPAIRS USABILITY OF SYSTEM INFORMATION . . . . .                                                               11
         DOCKET Data Inaccurate, Incomplete, or Unsupported . . . . . . . . . . . . . . . . . . . . . . .                                11
         Deletion of Cases Not Properly Controlled . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   14
         Input Errors Do Not Play Significant Role . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   14
         Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      15




                                                                                                            Report No. 2002-P-00004
                                                                    v
4-   CORRECTIVE ACTIONS NEEDED PRIOR TO
       IMPLEMENTING REPLACEMENT SYSTEM . . . . . . . . . . . . . . . . . . . . . . . . . . .                                     19
     Poor Data Quality May Continue In ICIS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                19
     Causes for Unreliable DOCKET Data Need to be Addressed . . . . . . . . . . . . . . . . . . . .                              20
     System Not Used To Manage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           21
     DOCKET Policies, Procedures, and Guidance Were Outdated
      and Inconsistent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   21
     Guidance Not Provided for Addressing Pollutant Information . . . . . . . . . . . . . . . . . . .                            22
     Quality Assurance Reviews Not Performed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                   23
     Policies and Procedures Need Improvement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  23
     Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .     24
     Agency Comments and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  27

EXHIBIT

     DETAILS ON SCOPE, METHODOLOGY, AND CRITERIA . . . . . . . . . . . . . . . . . . 29

APPENDICES

1-   OECA COMMENTS TO DRAFT REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

2-   REGIONAL INPUT FOR SYSTEM ENHANCEMENTS FOR ICIS . . . . . . . . . . . . . 39

3-   REPORT DISTRIBUTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41




                                                                                                   Report No. 2002-P-00004
                                                             vi
             CHAPTER 1
             INTRODUCTION


Purpose      The audit objective was to assess whether the National
             Enforcement Docket System (DOCKET) contained
             accurate and reliable data for managing enforcement
             actions, as well as reporting on environmental progress.

Background   In October 1998, several Committee Chairmen in the House
             of Representatives tasked the Inspector General (IG)
             community with verifying and validating selected data
             sources and information systems used to report on the
             Agency’s Government Performance and Results Act
             (GPRA) annual performance goals. In December 1998, the
             Senate also suggested the IG community verify and validate
             the accuracy and reliability of the performance data used to
             report on the Agency’s GPRA annual performance goals.

             DOCKET is EPA’s official database for tracking and
             reporting on civil judicial and administrative enforcement
             actions. EPA developed this national, automated
             information system to track civil litigation and
             administrative actions from case development to closure
             under all environmental statutes. DOCKET includes facility
             and defendant information, and can be used to track all
             major milestone events of a case. For example, DOCKET
             can track complaints, settlements, and Supplemental
             Environmental Projects (SEP). The Office of Enforcement
             and Compliance Assurance (OECA) has responsibility for
             providing policies and procedures for the DOCKET system,
             while both EPA Headquarters and regional offices are
             responsible for entering and maintaining information within
             the system.

             The Consent Decree Tracking System (CDETS) is a
             national database closely related to the DOCKET system.
             CDETS tracks facility and compliance schedule information
             of consent decrees. The system assists the tracking,


                                                   Report No. 2002-P-00004
                       1
managing, and reporting of compliance status information
from the point of initiation until facilities are in compliance
and the decree is terminated. Because of this close
relationship, CDETS was included in the data accuracy and
reliability work of this audit.

In 1999, Congress asked the National Academy of Public
Administration to conduct an independent evaluation of
state and federal enforcement data and to make
recommendations to Congress, EPA, and the states
regarding actions necessary for ensuring public access to
accurate, credible, and consistent enforcement data. The
Academy’s June 2001 report, “Evaluating Environmental
Progress: How EPA and the States Can Improve the
Quality of Enforcement and Compliance Information,”
pointed out the increasing importance of reliable
enforcement and compliance data. The report indicated
that good information was rapidly becoming an essential
element for environmental protection, and that reliable
enforcement and compliance data should be considered a
prerequisite for all environmental programs. The
Academy’s report emphasized that reliable data was
essential for EPA and the state environmental agencies to
identify environmental problems, set goals, select tools to
remedy problems, measure their progress, analyze the
effectiveness of their programs, and adjust their strategies
accordingly.

Furthermore, the report stated:

        “Good information is fundamental to effective
        management and public confidence in government
        agencies. For the last three decades, however, EPA
        and most state environmental agencies have relied
        on data about enforcement activities that do not
        actually show how well the environment is doing, or
        how well the regulated community is obeying
        environmental laws. To the extent that these data
        measure enforcement or other governmental
        performance, they are much more likely to be
        misleading than useful.”



                                        Report No. 2002-P-00004
           2
                        The Academy panel concluded that current data on
                        enforcement and compliance, and the systems used to
                        collect and disseminate that data, were inadequate to meet
                        the needs of the next generation of environmental programs.

Scope and Methodology   The primary focus of the audit was to evaluate the reliability
                        of specific DOCKET data elements used to track and
                        manage enforcement activities, as well as support
                        externally-reported GPRA performance measures and
                        annual performance goals. We conducted audit fieldwork
                        from November 2000 through June 2001, visiting all
                        10 EPA regional offices, Headquarters’ Mobile Source
                        Enforcement Branch, and Headquarters’ Toxics and
                        Pesticides Enforcement Division (hereafter referred to
                        collectively as “regions”). We conducted this audit in
                        accordance with Government Auditing Standards, and
                        requested and reviewed applicable documentation governing
                        DOCKET. For further discussion of our scope and
                        methodology, refer to the scope and methodology section
                        included in the Exhibit.

Prior Audit Coverage    In March 2001, the Office of Inspector General (OIG)
                        issued a report entitled “Enforcement: Compliance with
                        Enforcement Instruments” (Report No. 2001-P-00006).
                        The audit found that:

                        •      OECA’s annual accomplishment reports did not
                               accurately represent the actual environmental
                               benefits resulting from enforcement activities, and
                               associated performance measures were not sufficient
                               to determine the program’s actual accomplishments.

                        •      Regions did not always adequately monitor
                               compliance with enforcement instruments nor did
                               they always consider further enforcement actions.

                        For more information, refer to the prior audit coverage
                        section included in the Exhibit.

                        The Agency is in the process of responding to this report.




                                                               Report No. 2002-P-00004
                                  3
Criteria   We used Agency policies and procedures to form a
           framework of prudent practices for processing DOCKET
           data. The following criteria were of particular importance
           to our audit field work and analysis:

           •      Procedures for Maintenance of Enforcement Docket
                  System

           •      Enforcement DOCKET Maintenance

           •      Quality Assurance of Active Civil Enforcement Case
                  DOCKET

           •      Support of the Enforcement DOCKET for
                  Information Management in OECA

           •      Clarification of Administrative Order Tracking
                  Requirements

           •      Tracking EPA Administrative Action in DOCKET

           •      Guidance for Case Conclusion Data Sheet (CCDS)
                  Reporting Improvements

           For summaries of each of these policy memorandums, refer
           to the criteria section included in the Exhibit.




                                                 Report No. 2002-P-00004
                     4
                       CHAPTER 2
       GPRA ENVIRONMENTAL IMPACT UNDER-REPORTED


                       EPA under-reported the environmental impact of
                       enforcement actions under GPRA. This occurred due to
                       incomplete data in the DOCKET System (see Chapter 3).
                       In particular, DOCKET data was not accurate and complete
                       for providing information on enforcement actions that
                       resulted in pollutant reductions. As a result, the information
                       provided to Congress, the public, and EPA management
                       was not reliable.

EPA Under-Reported     Incomplete pollutant information prevented EPA from
Environmental Impact   accurately measuring environmental impact. According to
                       Section II of EPA’s fiscal 2000 Annual Report, EPA
                       enforcement actions resulted in a reduction of
                       approximately 714 million pounds of pollutants. We
                       reviewed the methodology used to report pollutant
                       reductions stemming from enforcement actions and found
                       pollutant amount data incomplete.

                       EPA uses DOCKET data to estimate the amount of
                       pollutant reduced as a result of enforcement actions. This
                       process requires pollutant amount information to be
                       completed for all enforcement actions reported as SEP or
                       compliance action pollutant reductions. EPA calculates
                       pollutant reduction estimates by selecting records that have
                       pollutant reductions associated with a SEP or compliance
                       action. EPA only includes a record in the calculation if it
                       has both the Pollutant Name and Pollutant Amount.

                       We selected the pollutant records associated with SEP or
                       compliance action reductions. For the records selected, we
                       tested the relationship between the Pollutant Name and
                       Pollutant Amount fields to determine how many pollutant
                       records did not have either a Pollutant Name or Pollutant
                       Amount. All pollutant records had Pollutant Names.
                       However, a significant number of records did not have


                                                              Report No. 2002-P-00004
                                 5
                                       Pollutant Amounts recorded, and consequently were not
                                       used in the calculation of pollutant reductions. The
                                       following table shows our results for fiscals 1998, 1999, and
                                       2000.

                                 Number of Pollutant                        Percent of Records
      Fiscal Year           Records Associated with SEP &                   Without Pollutant
                             Compliance Action Pollutant                    Amounts Entered
                               Reductions Identified *
         1998                               1,738                                   62%
         1999                               1,561                                   56%
         2000                               1,476                                   69%

      * NOTE: The number of pollutant records is different from the number of enforcement actions because
      each enforcement action case can generate multiple pollutant records.

                                       As noted in the table, in fiscal 2000, 69 percent of the
                                       pollutant records identified as SEP reductions or
                                       compliance action reductions did not contain pollutant
                                       amount information in DOCKET. As a result, EPA could
                                       not accurately quantify the estimated environmental impact
                                       of enforcement actions and, most likely, understated
                                       progress made in reducing pollutants.

GPRA-Related Fields                    Our review of 53 key fields disclosed that several fields
Inaccurate, Incomplete,                used for computing GPRA results were inaccurate,
or Unsupported                         incomplete, or unsupported. We found that the following
                                       GPRA-related fields contained among the highest
                                       occurrences of inaccurate, incomplete, or unsupported data.




                                                                                  Report No. 2002-P-00004
                                                    6
            DOCKET Screen Input Field Name               Projected Statistical Error Rate (%)

         Units                                                            54%
         Amount Pollutant                                                 52%
         Media                                                            52%
         Pollutant ID/case                                                51%
         Percent                                                          51%
         Frequency                                                        51%
         Pollutant Name                                                   43%


          NOTE: These fields are defined within the table in Chapter 3.

Existing Problems Affect                EPA’s current understatement of actual performance results
Future Reporting                        could result in management setting lower, future
                                        performance targets. Moreover, the high instance of
                                        missing data prevents EPA from (1) measuring the
                                        effectiveness of environmental policy, and (2) optimally
                                        directing national environmental efforts. With more reliable
                                        measurement data, EPA will have the potential to set more
                                        realistic and progressive targets for enforcement actions that
                                        result in pollutant reductions. Finally, management will be
                                        able to focus on enforcement actions that generate the
                                        greatest environmental impact.

                                        Management intends to use DOCKET as the baseline for
                                        populating a replacement system – the Integrated
                                        Compliance Information System (ICIS). Therefore, if
                                        management does not address missing and inaccurate
                                        DOCKET data in a prompt manner, the problems will
                                        continue in ICIS.

                                        Chapter 4 provides further details, including causes of the
                                        DOCKET inadequacies and recommendations for corrective
                                        actions.

Agency Comments                         The Agency officials agreed with the problems
and OIG Evaluation                      we identified. They also concluded there has been
                                        significant under-reporting of pollutant reductions.
                                        However, they believe that the understatement does not



                                                                                  Report No. 2002-P-00004
                                                    7
warrant calling the data unreliable. They believe that
understating the impact is preferable and more credible than
overstating it, and that the data should just be considered an
underestimate.

We concur that it is preferable and more credible to be
conservative when providing estimates. However, we
believe that estimates should be based on a consistent
methodology that:

•       provides a reasonable assurance that the majority of
        the applicable data is included, and

•       the absence of any data would not have a material
        impact on decision-making.

This is not the case based on the Agency’s own belief that
the pollutant reduction estimates have been significantly
under-reported. For example, GPRA data is used to assess
what EPA accomplishes over a set period of time and is also
used for establishing a baseline for future improvements.
By setting the baseline so low, perceived performance
improvements can be achieved, without actually improving
performance, by including a larger percentage of the
applicable data in the future year’s calculation. The same
scenario applies to using the data internally for managing.

At the Agency’s request, we made changes to Chapter 2 to
clarify that the data contained in pollutant-related data fields
are estimates rather than actuals.

Additionally, Agency officials indicated they were unsure
how inaccurate, incomplete, or unsupported DOCKET data
included within fields utilized for computing GPRA results
(GPRA-related fields) could affect those results.

We believe that employing inaccurate, incomplete, or
unsupported DOCKET data to compute GPRA results will
render inaccurate outcomes.

The Agency indicated that they developed a training module
to disseminate the information contained in the pollutant


                                        Report No. 2002-P-00004
           8
reduction estimating guidance. Management assured us that
regional training would be completed by the fourth quarter
of fiscal 2002.




                                    Report No. 2002-P-00004
          9
     Report No. 2002-P-00004
10
                             CHAPTER 3
              UNRELIABLE DATA IMPAIRS USABILITY OF
                     SYSTEM INFORMATION
                             DOCKET contained significant instances of inaccurate and
                             incomplete data. Many crucial fields were inaccurate and
                             incomplete, thereby creating a questionable baseline for
                             managing the national enforcement program and assessing
                             EPA’s environmental performance. Specifically, 94 percent
                             of the cases reviewed within DOCKET contained errors in
                             key fields. Therefore, neither Congress, the public, nor
                             EPA management should depend on the DOCKET system
                             as a reliable source of environmental data on enforcement
                             actions. The seriousness of the problem is compounded by
                             the fact that EPA is making an increasing amount of
                             DOCKET data available to the public via EPA Internet
                             websites. Factors contributing to poor data quality included
                             a cumbersome system that lacks functionality needed to
                             manage cases; inadequate and outdated policies,
                             procedures, and guidance; and the absence of
                             comprehensive quality assurance reviews.

DOCKET Data Inaccurate,      Analysis of statistical sample results showed that
Incomplete, or Unsupported   94 percent of DOCKET cases contained at least one error
                             within the 53 key fields reviewed. Both the OIG and OECA
                             management believed these 53 fields were critical to
                             managing the enforcement programs. These fields identified
                             key milestone dates, as well as quantitative information
                             related to pollutants, penalties, SEPs, and cost recovery.
                             The 53 key fields included three fields which OECA
                             management specifically requested us to review.




                                                                   Report No. 2002-P-00004
                                       11
We verified these data elements to source documentation
(detailed information available upon request). Our field
work disclosed that more than 88 percent (88.7% = 67.9%
+ 20.8%) of the key fields had an error rate greater than
3 percent, and just under 68 percent had an error rate
greater than 10 percent, as shown in the accompanying
chart.



         Percent Distribution of Field Error Rates
                11.3%


      20.8%



                                           67.9%

              Error Rate > 10%
              Error Rate > 3% & <= 10%
              Error Rate <= 3%




Our review disclosed that most key data fields were
inaccurate, incomplete, or unsupported. As a result, the
system often lacked data needed by management to
(1) identify and track cases, and (2) report accurate
performance information to Congress. The following table
identifies the data elements reviewed with error rates
greater than 30 percent.




                                      Report No. 2002-P-00004
         12
  DOCKET Screen Input        Projected Statistical                       Field Definition
      Field Name               Error Rate (%)

 Case Summary                        71%              A summary of the violation(s), environmental
                                                      problem(s), and a description of the cause(s) of action
                                                      (basis of legal action). The Case Summary should
                                                      provide:
                                                      • A brief summary of the nature of the matter (civil
                                                          or administrative) and the problem to be addressed.
                                                      • The name of principal defendant(s) and type and
                                                          number of defendant(s).
                                                      • A summary of relief requested.
                                                      • Any special facts or circumstances relevant to the
                                                          case.
 Units *                             54%              The measure used for the amount of reduction or
                                                      elimination of each pollutant or waste.
 Closed                              54%              When all conditions, terms, and monetary requirements
                                                      of the order or the settlement document have been met,
                                                      the case is considered closed. A case may also be
                                                      closed if no further action is contemplated by EPA.
 Amount Pollutant *                  52%              The amount of reduction or elimination of each
                                                      pollutant or waste in pounds, kilograms, or liquid
                                                      measure.
 Media *                             52%              The media where the pollutants or waste were
                                                      emitted/discharged (e.g., land, water, air).
 Pollutant ID/case *                 51%              The pollutant identification number or code assigned to
                                                      each pollutant selected.
 Percent *                           51%              The percent of pollutant or waste reduced or
                                                      eliminated.
 Frequency *                         51%              The frequency measure (in units of time) used for the
                                                      amount of reduction or elimination of each pollutant or
                                                      waste.
 Pollutant Name *                    43%              The waste material, substance, or chemical involved at
                                                      the facility in violation at the case level. At the
                                                      settlement level, the field is used to identify the
                                                      pollutants impacted by the physical actions taken.
* Fields used for GPRA purposes.

                                         The error rates for the three fields specifically requested by
                                         OECA Senior Management were: 71 percent for Case
                                         Summary, 29 percent for Court Docket Number, and
                                         21 percent for Judicial District.




                                                                                     Report No. 2002-P-00004
                                                     13
                        Only reliable information should be shared with Congress
                        and the public. These error rates are unacceptable if EPA
                        plans to use this data to address Congressional and public
                        needs. Moreover, the degree of incomplete or inaccurate
                        system data hampers the ability to successfully measure
                        enforcement actions.

Deletion of Cases Not   OECA and regional management did not enforce consistent
Properly Controlled     procedures to ensure deletions of enforcement cases were
                        properly documented, authorized, and controlled. OECA
                        did not have a policy that required written justification and
                        management authorization prior to deleting a case from the
                        system. Consequently, no regional policies existed to
                        ensure internal controls were applied when deleting case
                        records. Our regional field work disclosed numerous
                        instances where cases were deleted without proper
                        authorization and support.

                        Currently, regions use various local systems to track the
                        status of cases, rather than relying on DOCKET data as a
                        management tool. However, OECA is implementing a
                        replacement system, ICIS, for the express purpose of
                        tracking and managing enforcement actions. With the
                        introduction of ICIS, regions will be expected to eliminate
                        the redundant systems. As a result, the reliability of data in
                        the new system will play an even larger role for properly
                        tracking the status of cases. Therefore, management must
                        establish and implement consistent, effective controls over
                        the deletion of case records or ICIS will inherit and
                        perpetuate the same data problems.

Input Errors Do Not     We noted that input errors were not instrumental in causing
Play Significant Role   the inaccuracy and incompleteness of the data. To
                        determine the input error rate, we verified the contents of
                        162 fields to the applicable input documents. The 162 fields
                        were selected based on our knowledge of DOCKET and
                        CDETS, and on discussions with OECA representatives.
                        These fields include the 53 key fields previously discussed.
                        A field was counted as an error if the contents of the
                        DOCKET field did not match the input document.




                                                                Report No. 2002-P-00004
                                  14
                     Less than 14 percent of the fields selected had an error rate
                     greater than or equal to 3 percent, and less than 2 percent
                     had error rates greater than or equal to 5 percent. The
                     following table shows the three fields with error rates
                     greater than or equal to 5 percent. Based on these results,
                     we concluded that input errors did not have a substantial
                     impact on the inaccuracy and incompleteness of DOCKET
                     data.

                                                              Projected
                           DOCKET Screen Input
                                                           Statistical Error
                              Field Name
                                                              Rate (%)

                      Complaint/AO (Administrative              5.86%
                      Order) Issued (Date Field)
                      Law/Section                               5.52%
                      Lead EPA Attorney                         5.17%


                     Details regarding the results of this review will be provided
                     upon request.

                     Chapter 4 provides further details, including causes of the
                     DOCKET inadequacies and recommendations for corrective
                     actions.

Agency Comments      Agency officials agreed with the problems we identified.
and OIG Evaluation   However, management believes the report overstates the
                     unreliability of the data. In a memorandum dated December
                     19, 2001, the Agency proposed separating Judicial (Civil)
                     cases from Administrative cases. The Agency believed this
                     would provide a better representation of DOCKET data
                     reliability because certain fields only apply to Judicial cases.

                     Management is correct in stating that certain fields only
                     apply under specific circumstances related to each case. In
                     addition to the fields that are only applicable to Judicial
                     cases, some fields are only applicable to Administrative
                     cases, cases with SEPs, Multi-Media cases, etc..

                     We employed a methodology that conservatively assessed
                     the overall reliability of the data within DOCKET. We


                                                             Report No. 2002-P-00004
                               15
evaluated each field reviewed based on whether it was
applicable to the particular case. If a field was not
applicable and was left blank, then we accepted it as correct.
This methodology provided a very conservative error rate in
comparison to separately evaluating cases applicable to each
specific situation. We obtained concurrence on the
methodology from Agency officials and the General
Accounting Office (GAO) prior to beginning the review.

We disagree with the Agency’s specific examples to support
separating Judicial from Administrative cases because the
fields listed in its response are not solely applicable to Civil
Judicial Cases. For example, the Case Summary field is also
required for Administrative Cases based on section 2.1 of
the Agency’s DOCKET User’s Manual and the Agency’s
Administrative Case Data Form, issued by Headquarters.
The Pollutant Name field is optional (not required) for both
Judicial and Administrative Cases according to sections 3.4,
3.25, 3.28, & 3.29 of the same manual. Likewise, the
Penalty By Statute field applies to both Judicial and
Administrative cases as long as they are a multi-media case
with a penalty. To ensure that we did not overstate any of
the reported error rates, we double-checked our work. We
did not find problems specific to this situation. However,
we did find and correct errors affecting the Penalty by
Statute field caused when the results data was transferred
from Word Perfect to Lotus.

We believe the unreliability of data is not overstated, based
on the significant error rates uncovered for most of the key
fields reviewed.

We provided the results of our review at the case level so
the Agency could break out the results by Civil and
Administrative Cases. As such, management can perform
further analysis that they deem to be of additional benefit.

The Agency also stated that they believe the data in
DOCKET is adequate to track the status of Civil Judicial
and Administrative cases.




                                        Report No. 2002-P-00004
          16
We believe that for the data to be useful for managing
purposes, it needs to be reliable. Based on the significant
error rates uncovered for most of the key fields reviewed,
we believe the DOCKET data is not adequate for tracking
the status of Civil Judicial and Administrative caseload.

The results of our fieldwork indicate that Headquarters is
the primary user of collected DOCKET data, and that most
regions use DOCKET predominately as a reporting system
to EPA Headquarters. Regions input the information into
DOCKET, even though it does not meet their needs,
because they have been directed to do so by Headquarters.
The data fields reviewed were key elements for managing
enforcement actions, based on a consensus between OECA
management and the OIG. In addition to quantitative
information, these fields included data used specifically for
tracking the status of the cases, such as milestone dates.
The fact that resources are dedicated to collecting data that
is primarily used by Headquarters, rather than what the
regions need to manage, substantiates the importance of this
data to Headquarters.

The Agency requested the report be clear about the source
of the problems so that corrective actions could be targeted
appropriately. We identified what we believe to be the root
causes within Chapter 4 of the report. We focused our
recommendations, also included in Chapter 4, on corrective
actions to address those causes.

Agency officials also indicated that they have never
experienced problems due to the absence of procedural
controls for deleting cases from the system. They stated
that when a case is deleted, it is not critical to managing
their enforcement program.

We found that the Agency does not have compensating
controls in place to determine if cases were improperly
deleted. We believe it is important to apply proper internal
controls to ensure the integrity of system data. Instituting a
standard control practice becomes even more critical with
the advent of ICIS, because the regions will be expected to



                                        Report No. 2002-P-00004
          17
use it to manage and track the status of cases rather than
using stovepipe systems.




                                       Report No. 2002-P-00004
          18
                       CHAPTER 4
   CORRECTIVE ACTIONS NEEDED PRIOR TO IMPLEMENTING
                REPLACEMENT SYSTEM
                       OECA is implementing a replacement system for DOCKET,
                       the Integrated Compliance Information System (ICIS), for
                       the express purpose of tracking and managing enforcement
                       actions. If improvements are not made to keep ICIS from
                       having the same problems as DOCKET, enforcement data
                       quality will continue to suffer. Due to DOCKET’s lack of
                       functionality, regions only used it as an information
                       reporting system to EPA Headquarters, and not as an
                       enforcement case management system. If ICIS does not
                       fulfill that role, then regions will continue to expend
                       additional resources to maintain redundant systems for their
                       particular managing needs.

Poor Data Quality      Poor enforcement data quality will continue if EPA’s new
May Continue In ICIS   enforcement system, ICIS, does not meet the regions’ needs
                       for managing enforcement actions on a day-to-day basis.
                       Because of the difficulties encountered with DOCKET,
                       users primarily relied on their regional systems for managing
                       cases and placed less importance on the quality of data
                       entered in DOCKET. The regions have identified critical
                       functions they deem necessary to meet management
                       requirements and improve data quality in ICIS. With the
                       introduction of ICIS, regions will be expected to eliminate
                       the redundant systems. However, if EPA does not address
                       the user’s needs within ICIS, the new system will perpetuate
                       the same data quality concerns.

                       Regional personnel consistently acknowledged the
                       importance of having a single system for tracking and
                       managing enforcement actions. As such, all regions
                       participated in OECA focus group discussions to identify
                       ICIS system requirements. In addition, some regions
                       provided us with input regarding system improvements. A
                       few of the regional suggestions were:




                                                             Report No. 2002-P-00004
                                 19
                        •      Establish single point of entry to satisfy all
                               environmental systems’ data requirements.

                        •      Establish security controls to protect high profile
                               litigation or high dollar cases.

                        •      Establish automatic notification of missed milestones
                               (e.g., e-mail).

                        See Appendix 2 for a complete listing of regional
                        suggestions.

                        If ICIS is not designed to meet user needs, then regions will
                        continue to expend additional resources to maintain
                        redundant systems. We surveyed EPA to determine the
                        extent regions were developing and maintaining independent
                        systems for enforcement and compliance tracking. We
                        received responses from all regions and found that they have
                        already spent $290,000 to develop 19 redundant, “stove-
                        piped” systems to meet their needs, and have budgeted
                        approximately $1.3 million over the next 5 years to maintain
                        those 19 systems. We believe the regions could better use
                        these funds to support environmental programs.

Causes for Unreliable   Our review disclosed that multiple causes contributed to
DOCKET Data Need        incomplete and inaccurate data in DOCKET. Specifically,
to be Addressed         we identified the following main factors:

                        •      DOCKET was not used to manage, because it was
                               considered cumbersome and lacked functionality.

                        •      DOCKET’s policies, procedures, and guidance were
                               outdated and inconsistent.

                        •      OECA did not provide guidance on identifying and
                               calculating pollutant information.

                        •      Regions did not comprehensively review
                               enforcement data.




                                                                Report No. 2002-P-00004
                                  20
                            •      Regional policies and procedures were inadequate
                                   and inconsistent.

                            Details on each of these areas follow.

System Not Used to Manage   Regions did not use DOCKET on a daily basis for
                            enforcement case management, because users said they
                            considered the system to be cumbersome, non-user-friendly,
                            and lacking the functionality needed to manage. Regions
                            were primarily using DOCKET as an information reporting
                            system to EPA Headquarters.

DOCKET’s Policies,          OECA had not updated the DOCKET User’s Guide and
Procedures, and Guidance    Data Dictionary to identify critical data elements essential
Were Outdated and           for performance reporting. Many crucial data elements
Inconsistent                were designated as optional, resulting in many database
                            fields being unpopulated. For example, the current
                            DOCKET User’s Guide states the pollutant fields are
                            optional. Therefore, pollutant information is often not
                            reported, even though such data factors into
                            Congressionally-reported performance measures. The error
                            rates for these particular fields are listed in Chapter 2.

                            In addition, inconsistencies between DOCKET’s User’s
                            Guide, Data Dictionary, and input forms could lead to
                            confusion by users. Some examples of inconsistencies are:

                            •      The Administrative Case Data Form indicates that
                                   fields are required, although the detailed section of
                                   the User’s Guide indicates they are not required.

                            •      The Administrative Case Data Form indicates that
                                   certain fields included on the form are not required,
                                   even though the general section of the User’s Guide
                                   indicates they all are required.

                            •      The required fields per the Data Dictionary do not
                                   always coincide with the User’s Guide required
                                   fields.




                                                                     Report No. 2002-P-00004
                                      21
                        Furthermore, DOCKET does not force users to input data
                        into many key fields. OECA indicated that the User’s
                        Guide and Data Dictionary define required fields as those
                        for which the system demands data input. However,
                        prudent practices should ensure that fields which senior
                        management have identified as key to managing the
                        program and reporting results coincide with the mandatory
                        entry fields defined in the application system. Because
                        DOCKET’s system requirements do not always correspond
                        with management’s desires, users cannot always trust the
                        User’s Guide or Data Dictionary to determine what data
                        they must enter into the system.

Guidance Not Provided   Although EPA recently issued an extensive training manual
for Addressing          regarding pollutant information, the regions have not
Pollutant Information   implemented the guidance. Our field work concluded that
                        personnel consistently provided incomplete or inaccurate
                        pollutant information and needed to be trained. OECA
                        reached similar conclusions as a result of independent
                        studies, although they did not issue any comprehensive
                        training guidance until January 2001. During the last
                        several years, OECA has enhanced DOCKET to
                        accommodate input of CCDS information, created a new
                        CCDS, and initiated additional reviews to address
                        weaknesses in their information reporting methodology.
                        OECA’s latest review1 found that incomplete data was a
                        major issue for several key data elements, such as pollutant
                        name, amount, and units.

                        Whereas OECA’s recent manual included guidance on how
                        to identify and calculate pollutant information, management
                        did not identify an implementation date for using the new
                        procedures. Consequently, the regions did not apply the
                        guidance. OECA stated that a program for delivering onsite
                        training is being developed.



                                1
                                  Report entitled, “Review, Analysis, and Recommendations
                        for Improvement of Office of Enforcement and Compliance Assurance
                        Case Conclusion Data Sheets – Final Report,” dated November 29,
                        1999, Page 1.


                                                                 Report No. 2002-P-00004
                                    22
                            To accurately and consistently compute pollutant
                            information associated with compliance actions, field
                            inspectors must be aware of the information needed for the
                            computations outlined in the guidance. In some cases, these
                            field inspectors are state employees. If the state field
                            inspectors are not advised of the data necessary for the
                            computations associated with potential compliance actions,
                            then it is conceivable that not all of the necessary
                            information will be collected during the inspection. Without
                            this information, EPA may still have problems accurately
                            and consistently computing pollutant information.

Quality Assurance Reviews   Regions relied on inconsistent, limited reviews rather than
Not Performed               systematic and comprehensive quality assurance reviews.
                            Although OECA published procedures for conducting
                            monthly quality assurance reviews of all DOCKET fields,
                            the regions were not adhering to the policy. The policy
                            requires that the lead attorneys review and update all data
                            fields using the Monthly Case Update Report. In addition,
                            the User’s Guide states that the information for completing
                            some of the key fields will be provided on the Monthly Case
                            Update Report. We found that the regions were not using
                            this report and, as a result, the information for these fields
                            were often not completed or reviewed.

                            None of the regions had formal policies and procedures
                            which assigned responsibility and accountability for
                            conducting quality reviews. The informal reviews merely
                            consisted of reconciling case names in stovepipe systems to
                            DOCKET and/or performing high-level reviews of limited
                            fields. Furthermore, we found that whenever regions
                            distributed reports for quality assurance purposes, the
                            reports did not contain all data fields. The inconsistent and
                            limited nature of quality assurance reviews perpetuated high
                            error rates in DOCKET.

Policies and Procedures     The regions did not have formal policies and procedures
Need Improvement            to implement OECA’s policies, procedures, and guidance
                            for all phases of enforcement data processing (i.e.,
                            identification, collection, inputting, deletion, quality
                            assurance, etc.). As a result, regional management had not



                                                                   Report No. 2002-P-00004
                                      23
                  formalized its expectations, nor implemented a formal
                  mechanism to ensure that personnel processed enforcement
                  information in a consistent manner. The lack of formalized
                  policies and procedures led to inconsistencies in the way
                  enforcement data was processed from region to region, as
                  well as within regions.

Recommendations   We recommend the Assistant Administrator for
                  Enforcement and Compliance Assurance:

                  1.     Develop and implement a process to ensure system
                         requirements, identified by the users at Headquarters
                         and within the regions, are included in the design
                         and implementation of the system being developed
                         to replace DOCKET.

                  2.     With regards to OECA’s policies, procedures, and
                         guidance related to DOCKET, as well as guidance
                         related to pollutant information:

                         a.        Revise, consolidate, issue, and monitor the
                                   implementation of all policies, procedures,
                                   and policy memorandums related to
                                   DOCKET. The policies and procedures
                                   should:

                                   (1)    Be based on management’s needs and
                                          how the data will be used;

                                   (2)    Address all phases of DOCKET/new
                                          system (ICIS) data processing, e.g.,
                                          identification, collection, input,
                                          deletion, quality assurance, etc.;

                                   (3)    Assign authority, responsibility, and
                                          accountability for each of the phases
                                          and processes; and

                                   (4)    Ensure all data elements applicable to
                                          an enforcement action are completed
                                          timely, accurately, and consistently.



                                                          Report No. 2002-P-00004
                              24
     b.        Develop and implement training coinciding
               with the issuance of new policies and
               procedures for all applicable personnel
               (e.g., attorneys, data entry, technical
               representatives, etc.).

     c.        Revise the User’s Guide, Data Dictionary,
               and input forms to eliminate inconsistencies
               and to identify management requirements
               related to the data elements.

     d.        Formally communicate and reach agreement
               with the states regarding what information
               needs to be collected during inspections that
               may result in compliance actions. This
               information is necessary, per the guidance, to
               complete the CCDS.

3.   In regard to the Quality Assurance Process:

     a.        Develop and implement policies and
               procedures that establish a Quality
               Assurance process. OECA management
               should periodically monitor and review the
               Quality Assurance process. The Quality
               Assurance process should:

               (1)    Assign authority, responsibility, and
                      accountability for Quality Assurance
                      for each case to the person most
                      knowledgeable about the case
                      (attorney);

               (2)    Establish and document how often
                      the procedures should be performed.
                      The timing of the Quality Assurance
                      reviews should be tied to
                      management’s information needs; and

               (3)    Be monitored and periodically
                      reviewed by OECA management.


                                      Report No. 2002-P-00004
          25
      b.        To assist in the identification of missing data,
                develop standard reports that will identify
                missing or potentially missing data for each
                type of case and each relevant segment of
                information, (e.g., SEPs, Audit Policy,
                pollutant-related information, etc.), and have
                the regions review these reports as part of
                the Quality Assurance process.

4.    With regard to populating and deploying the new
      system:

      a.        Identify those cases that need to be brought
                into the new system (ICIS); and

      b.        Develop and apply a scrubbing process to
                the cases identified (prior to populating the
                system) to ensure that the data used to
                populate the new system is accurate and
                complete.

We recommend the Regional Administrators and EPA’s
Director of the Office of Regulatory Enforcement:

5.    Develop and implement formal regional policies and
      procedures that:

      a.        Implement OECA’s policies and procedures
                effectively and efficiently at each site;

      b.        Establish lines of authority and
                communication across organizational
                segments to ensure that the data collected
                and maintained within the system is accurate,
                complete, timely, and consistent; and

      c.        Establish a monitoring process to:

                (1)     Verify the policies and procedures
                        are being followed,



                                        Report No. 2002-P-00004
           26
                                    (2)     Continuously evaluate the efficiency
                                            and effectiveness of the processes,
                                            and

                                    (3)     Identify opportunities to improve
                                            processes.

Agency Comments      Agency officials agreed with the causes identified in this
and OIG Evaluation   report. They pointed out that it would be helpful if we
                     could identify the inconsistencies we found during our
                     review.

                     We provided them with examples of inconsistencies we
                     found during our cursory review of the DOCKET User’s
                     Guide, Data Dictionary, and input forms. However, we
                     believe that fixing the ones we noted does not fulfill
                     management’s responsibility to perform their own review
                     and make applicable corrections.

                     Agency officials noted that our report does not present
                     analysis based on data produced after the issuance of the
                     guidance (related to estimating pollutant reduction results)
                     in January 2001.

                     The sample cases selected were all opened prior to
                     September 29, 2000. However, we verified the accuracy of
                     the data, associated with the selected cases, as of the dates
                     we performed the field work. We conducted field work for
                     nine of the ten regions after the guidance was issued. The
                     nine regions we visited after it was issued stated they had
                     not started using the guidance yet.

                     The Agency asked us to clarify that Recommendation 2.d.
                     refers to the information on the Case Conclusion Data
                     Sheets for pollutant information. We clarified the
                     recommendation, as requested.

                     Agency officials stated that they would respond to the
                     specific recommendations upon receipt of the final report.




                                                            Report No. 2002-P-00004
                               27
                                      EXHIBIT
           DETAILS ON SCOPE, METHODOLOGY, AND CRITERIA



Scope And Methodology

Congress asked the Inspector General community to both verify and validate the accuracy and
reliability of performance data used to report on the Agency’s GPRA annual performance goals.
Verifying is the process of determining whether system data is accurate and complete (i.e.,
reliable), whereas validating entails determining whether an agency’s key performance measures
are consistent with its strategic and annual performance goals. Our audit was limited to verifying
the accuracy and reliability of the data within DOCKET.

We selected two random attribute samples to help assess the accuracy and completeness of
DOCKET data. We selected one sample for active cases and a second sample for deleted cases.
We used the sample for active cases to perform source document verification for 53 key fields and
input document verification analysis. We used the second sample to review support documents
associated with the justification and authorization of deleted cases.

We also performed analysis of the complete DOCKET Database for edit checks and field
relationships, as defined by the DOCKET Data Dictionary.

OECA management disclosed they were developing a replacement system for DOCKET entitled
Integrated Compliance Information System (ICIS). As a result, we requested that regions identify
what improvements they would like implemented in the replacement system. We also conducted
a survey to determine the resources regions committed to develop and maintain systems for
managing enforcement actions. We performed this survey because these systems were used in
lieu of DOCKET.

Prior Audit Coverage

In March 2001, the OIG issued a report entitled “Enforcement: Compliance with Enforcement
Instruments,” (Report No. 2001-P-00006). The audit found that:

       •    OECA’s annual accomplishment reports did not accurately represent the actual
            environmental benefits resulting from enforcement activities. For example, an OECA
            report stated that fiscal 1999 enforcement actions resulted in the reduction of more
            than 6.8 billion pounds of pollutants. However, this may have been an understatement



                                                                            Report No. 2002-P-00004
                                                28
           or overstatement since: (1) violators did not always comply with the enforcement
           instruments, and (2) data was not comprehensive. Also, OECA’s performance
           measures were not sufficient to determine the program’s actual accomplishments.
           Consequently, Congress had less useful performance data upon which to base its
           decisions.

       •   Regions did not always adequately monitor compliance with enforcement instruments
           nor did they always consider further enforcement actions. Ineffective monitoring was
           due primarily to the lack of: (1) guidance detailing how or when to monitor
           enforcement instruments, and (2) emphasis OECA placed on monitoring. Ineffective
           monitoring may have contributed to the regions not considering further enforcement
           actions for noncompliance with enforcement instruments. Consequently, there was a
           risk that (1) violations would continue and contribute to environmental harm or
           increased health risks, and (2) EPA’s effectiveness, through deterrence, would be
           adversely impacted. The report listed instances where EPA had no evidence that
           significant violations had been corrected.

Criteria

Included below are summaries of criteria that were of particular importance to our audit field
work and analysis:

       Procedures for Maintenance of Enforcement Docket System

       This memorandum, dated April 21, 1983, established the Enforcement Docket System as
       the official system for tracking and maintaining summary and status information about civil
       and criminal enforcement actions. The document was the official record of all litigation
       activity used for:

               •    Reporting to the Administrator regarding accountability measures,
               •    Responding to Congressional inquiries,
               •    Answering Freedom of Information Act requests, and
               •    Performing special analyses.

       According to this source, the Lead EPA Attorney is responsible for completing the case
       input forms and giving them to the regional data analyst for assignment of a case number
       and initial data entry. The Lead EPA Attorney also has primary responsibility for the
       review and update of all active cases. In addition, the document establishes and assigns
       the responsibility for the quality assurance function to the Lead EPA Attorney.




                                                                             Report No. 2002-P-00004
                                                29
Enforcement DOCKET Maintenance

This policy memorandum, dated April 8, 1988, identified specific responsibilities for the
regional offices and EPA Headquarters. The document stated the primary responsibility
for timeliness, accuracy, and completeness of DOCKET data resided with the Offices of
Regional Counsel. Specifically:

       •    Regions were responsible for accurate updates at least monthly;
       •    Headquarters was responsible for accurate monthly update of Headquarters-
            initiated data fields;
       •    Headquarters would not amend regional data entry;
       •    Headquarters would continue to monitor overall data quality on a monthly
            basis for the balance of fiscal 1988, and thereafter on a quarterly basis.
            Headquarters would be responsible for bringing discrepancies to the attention
            of the Regional Counsel; and
       •    DOCKET maintenance would be considered part of the annual performance
            assessment discussion with Regional Counsels.

Quality Assurance of Active Civil Enforcement Case DOCKET

This policy, dated March 2, 1989, addressed the quality of the data in DOCKET. The
document emphasized EPA’s reliance on DOCKET information to (1) manage
enforcement programs, and (2) respond to internal and external inquiries (e.g., Congress
and the public). Furthermore, the policy decentralized the Agency’s enforcement process
by giving regions the authority and responsibility for initiating and following through on
enforcement actions.

Support of the Enforcement DOCKET for Information Management in OECA

On October 3, 1994, this policy assigned the Regional Counsels primary responsibility for
entering and maintaining data on all civil judicial and administrative enforcement actions.
In particular, Regional Counsels were to ensure that:

       •    Every civil judicial and formal administrative penalty enforcement case was
            entered into DOCKET;
       •    All new formal administrative penalty actions, starting with fiscal 1995, were
            entered into DOCKET; and
       •    By the end of the second quarter of fiscal 1995, all administrative penalty
            orders that had been issued or filed but not yet concluded, were entered into
            DOCKET.




                                                                     Report No. 2002-P-00004
                                        30
Clarification of Administrative Order Tracking Requirements

This policy memorandum, dated May 9, 1995, clarified administrative orders and, in
particular, addressed the inefficiencies of dual data entry - that is, entering the same data
into DOCKET and various program databases. This policy emphasized that all
administrative penalty actions were to be entered into DOCKET. The document also
reemphasized that DOCKET was to be the primary source for Enforcement data.

Tracking EPA Administrative Action in DOCKET

This policy memorandum, dated March 6, 1996, clarified that all EPA administrative
penalty orders and orders for cost recovery, issued in fiscal 1996 and subsequent years,
were to be entered into DOCKET. The document also reaffirmed that DOCKET was the
official system for tracking and reporting on EPA civil judicial and administrative
enforcement actions.

Guidance for Case Conclusion Data Sheet (CCDS) Reporting Improvements

This guidance, dated January 2, 2001, provided instructions and examples for collecting
and computing pollutant-related enforcement data, used to describe the impact of
enforcement actions on the environment.




                                                                        Report No. 2002-P-00004
                                          31
      APPENDIX 1
OECA COMMENTS TO DRAFT REPORT




                            Report No. 2002-P-00004
             32
     Report No. 2002-P-00004
33
     Report No. 2002-P-00004
34
     Report No. 2002-P-00004
35
     Report No. 2002-P-00004
36
     Report No. 2002-P-00004
37
                                  APPENDIX 2
     REGIONAL INPUT FOR SYSTEM ENHANCEMENTS FOR ICIS



From December 2000 through May 2001, we visited each EPA Regional Office and
Headquarters. During these visits, we asked each location to provide suggested improvements
they would like to see incorporated into the Integrated Compliance Information System (ICIS).

Regions participated in OECA Focus Groups on the new system (ICIS), where they provided
suggestions for design enhancements to meet their needs. Most regions did not provide a
comprehensive list of suggestions because they had already provided them directly to OECA.

We received a total of 38 responses. All regions did not provide comments. The table below is
not a complete listing of requirements from all locations visited. We grouped similar responses
into categories and ordered the listing based on the number of responses received for each
category. The table below summarizes the comments received.

                      Additional Considerations for the Development of ICIS
                      (* Input Provided By EPA Regions and Headquarters)
 Number of Responses
     Received                                             Category
           10            Improve Report Capabilities
                               a. Improve report formats to reduce paper
                               b. Add capability to detect and report missing data
                               c. Integrate quality control process into system
           7             Integrate Regional Systems’ Capabilities
                                 d. Integrate the capabilities of regional systems such as Compliance
                                    Activity Tracking System (CATS), Super DOCKET, etc..

           6             Improve Interface
                               e. Make data easier to access the data
                               f. Make Ad-Hoc Queries easier to run
                               g. Make the screens more user-friendly
           5             Improve Search Capabilities
                               h. Make it easier to use
                               i. Add the capability to see Defensive Cases
                               j. Add the capability for managers to see milestones


                                                                               Report No. 2002-P-00004
                                                38
                        Additional Considerations for the Development of ICIS
                        (* Input Provided By EPA Regions and Headquarters)
            4              Add New Features
                                 k. Add automatic notification of missed milestones (e.g., e-mail)
                                 l. Add security to protect high-profile/high-dollar cases
                                 m. Add fields for supplemental referrals
                                 n. Add ability to hotlink to a source document

            3              Reduce Duplicate Entry of Data in Multiple Systems
                                  o. Develop an integrated system that shares the data with all other
                                     related systems so that each applicable data element only has to
                                     be entered one time

            3              Improve Policy and Procedures
                                 p. Require regions to use
                                 q. Allow entry of data by those most knowledgeable about the case
                                     information
                                 r. Standardize data codes

* NOTE: Not all regions and Headquarters offices provided comments. This list is not a complete listing
of regional and Headquarters requirements.




                                                                                 Report No. 2002-P-00004
                                                   39
                                 APPENDIX 3
                              REPORT DISTRIBUTION



Recipient

       Acting Assistant Administrator for Enforcement and Compliance Assurance (2201A)

Office of Inspector General

       Inspector General (2410)
       Assistant Inspector General for Audits (2421)
       Media and Congressional Liaison (2410)
       Counsel (2411)
       Editor (3A100)

EPA Headquarters

       Agency Audit Followup Official (2710A)
       Agency Followup Coordinator (2724A)
       OECA Audit Liaison (2201A)
       Director, Office of Compliance (2221A)
       Director, Enforcement Planning, Targeting, and Data Division (2222A)
       Director, Office of Regulatory Enforcement (2241A)
       Director, Toxics and Pesticides Enforcement Division (2245A)
       Director, Air Enforcement Division (2242A)

Regional Offices

       Region I:      Regional Administrator (RAA)
                      Director, Office of Environmental Stewardship
                      Audit Follow-up Coordinator (MIO)
       Region II:     Regional Administrator
                      Regional Counsel
                      Audit Follow-up Coordinator
       Region III:    Regional Administrator (3RA00)
                      Regional Counsel (3RC00)
                      Audit Follow-up Coordinator (3PM70)



                                                                        Report No. 2002-P-00004
                                              40
Region IV:   Regional Administrator
             Director, Environmental Accountability Division
             Audit Follow-up Coordinator
Region V:    Regional Administrator (R-19J)
             Regional Counsel (C-14J)
             Audit Follow-up Coordinator (MF-10J)
Region VI:   Regional Administrator (6RA)
             Regional Counsel (6RA-D)
             Director, Compliance Assurance and Enforcement Division (6EN)
             Audit Follow-up Coordinator (6MD-RC)
Region VII: Regional Administrator (RA)
             Regional Counsel (CNSL)
             Audit Follow-up Coordinator (PLMGRFMB)
Region VIII: Regional Administrator (RA)
             Regional Counsel (RC)
             Assistant Regional Administrator, Office of Enforcement, Compliance,
                 and Environmental Justice (ENF)
             Audit Follow-up Coordinator (TMS-ISP)
Region IX:   Regional Administrator (ORA-1)
             Regional Counsel (ORC-1)
             Audit Follow-up Coordinator (PMD-4)
Region X:    Office of Regional Administrator (RA-140)
             Office of Regional Counsel
             Audit Follow-up Coordinator




                                                                Report No. 2002-P-00004
                                      41
